<html>
<title> - PIPELINES OVER PEOPLE (PART II): MIDSHIP PIPELINE'S DISREGARD FOR LANDOWNERS IN ITS PATHWAY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                    PIPELINES OVER PEOPLE (PART II):
                    MIDSHIP PIPELINE'S DISREGARD FOR
                       LANDOWNERS IN ITS PATHWAY

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2021

                               __________

                           Serial No. 117-19

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on: govinfo.gov
                         oversight.house.gov or
                             docs.house.gov
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-571 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                           
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                      Dave Rapallo, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Kweisi Mfume, Maryland               Pete Sessions, Texas, Ranking 
Debbie Wasserman Schultz, Florida        Minority Member
Robin Kelly, Illinois                Jim Jordan, Ohio
Ayanna Pressley, Massachusetts       Clay Higgins, Louisiana
Eleanor Holmes Norton, District of   Andy Biggs, Arizona
    Columbia                         Nancy Mace, South Carolina
Alexandria Ocasio-Cortez, New York   Scott Franklin, Florida
Rashida Tlaib, Michigan              Byron Donalds, Florida
Danny K. Davis, Illinois
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 5, 2021......................................     1

                               Witnesses

Rob Squires, Landowner Advocate, Squires Consulting, LLC
Oral Statement...................................................     5
Samuel B. Gedge, Attorney, Institute for Justice
Oral Statement...................................................     7
Christopher A. Smith, Senior Vice President, Policy, Government 
  and Public Affairs, Cheniere Energy, Parent Company of Midship 
  Pipeline Co.
Oral Statement...................................................     9
Terry Luber, Landowner
Oral Statement...................................................    10

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

  * Unanimous Consent: Statement for the record; submitted by 
  Rep. Sessions.

Documents entered into the record during this hearing are 
  available at: docs.house.gov.

 
                    PIPELINES OVER PEOPLE (PART II):
                    MIDSHIP PIPELINE'S DISREGARD FOR
                       LANDOWNERS IN ITS PATHWAY

                              ----------                              


                         Wednesday, May 5, 2021

                   House of Representatives
                  Committee on Oversight and Reform
          Subcommittee on Civil Rights and Civil Liberties,
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:12 a.m., 
via Zoom, Hon. Jamie Raskin (chairman of the subcommittee) 
presiding.
    Present: Representatives Raskin, Mfume, Wasserman Schultz, 
Kelly, Ocasio-Cortez, Tlaib, Sessions, Higgins, and Biggs.
    Mr. Raskin. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I will now recognize myself for an opening statement.
    Good morning. And thank you to all of our witnesses for 
being here with us virtually today. This hearing is a 
continuation of our investigation into the imbalance of power 
between private landowners and pipeline companies at the 
Federal Energy Regulatory Commission, FERC.
    Our subcommittee's been investigating FERC's process for 
permitting natural gas pipelines and its effects on the rights 
of landowners since February of last year. Our initial 
investigation revealed that FERC's rules and practices allowed 
these big companies to trample the rights of individual 
landowners.
    Before we get into today's topic, I want to address some 
breaking news out of FERC.
    As you know, FERC is the primary Federal permitting agency 
for construction and operation of all major interstate natural 
gas pipelines. It grants certificates to pipeline companies 
that allow them to assert eminent domain over the property of 
individual landowners per the Natural Gas Act.
    Because of FERC's procedures, landowners were given little 
to no opportunity to prevent use of their private property 
against their will. In our subcommittee hearing in December, we 
pressed FERC to stay its certificates, such that a company 
could not assert eminent domain over a landowner's objections 
while the landowner's appeals were still pending.
    We learned just last night that FERC has issued a new order 
that does exactly that. I want to thank Chairman Glick for his 
work to move landowner rights forward. This commonsense and 
eminently fair practice was long overdue, and I'm thrilled that 
Chairman Glick and FERC have made this change a priority.
    But there's still a lot of work to do, so I turn now to the 
issue before us, the Midship Pipeline.
    Because of our investigation, we started to hear from 
landowners who were enduring long delays in the restoration and 
repair of their land damaged by pipeline construction. One 
example came up over and over again: the Midship Pipeline in 
Oklahoma.
    And I want to take a second here to be clear on the 
identity of the parties involved in today's hearing. While the 
pipeline is technically built by an LLC called Midship 
Pipeline, Cheniere Energy is the parent company. Their staff 
told us that Midship executives also all have Cheniere titles. 
It is Cheniere staff that have been negotiating directly with 
the landowners, and when we contacted Midship for testimony, it 
was Cheniere's senior vice president for government affairs who 
showed up in response.
    So, I think it's safe to say that Cheniere is responsible 
for what's happening with the Midship Pipeline. And you will 
hear us refer to Cheniere, not just Midship LLC, 
interchangeably here today.
    After hearing about the problems with Cheniere's Midship 
Pipeline, we investigated and found that FERC routinely allows 
pipelines to go into service before the companies have fully 
restored the land that they damaged during construction. That 
means the companies, if you think about it, have no real 
incentive to settle with and satisfy the valid demands of 
landowners for repair of the land and face minimal consequences 
for not doing so.
    If I come onto your land by way of eminent domain and I 
disrupt your farm and your business, invade the ground, tear it 
up, and I start making money immediately, what's my incentive 
to repair and restore your land? I've already gotten out of you 
what I want to get out of you. And that's the situation a lot 
of these landowners find themselves in.
    FERC only requires that the companies demonstrate they've 
made, quote, ``substantial progress'' on restoration prior to 
going into service, but it never specifies what that means. In 
practice, as the Midship Pipeline case illustrates, FERC's 
standard is totally slippery and woefully insufficient. It's a 
promise basically written in disappearing ink.
    More than a year after Cheniere turned on the pipeline, 
Oklahoma farmers are still dealing with leftover construction 
debris, erosion, flooding, and missing topsoil, among other 
damage.
    Despite Cheniere's disregard for the property rights of 
these American farmers, FERC did not step in until March of 
this year to finally order Cheniere to complete restoration by 
May 17.
    When FERC did finally take action, newly appointed Chairman 
Richard Glick wrote that he was deeply frustrated with the, 
quote, ``disregard that Midship has shown for landowners and 
communities along the route'' of the Midship Pipeline. He also 
stated that it was, quote, ``past time for Midship to promptly 
resolve these issues and allow the landowners to move on with 
their lives.''
    I went directly to Cheniere to ask them, what are they 
doing to rectify the situation on the ground for these property 
owners? Last year, they told my staff and FERC that the damage 
would all be repaired by June 30, 2020--June 30 of last year. 
That day came and went. Cheniere's promise was not met. Now 
Cheniere is promising that all of the landowners' property will 
be restored by May 17, less than two weeks from now.
    At this point, the landowners have lost faith and trust in 
Cheniere's ability to properly repair their land. They have 
asked instead for Cheniere to compensate them for their cost to 
hire their own contractors to repair their damaged property. 
The farmers estimate that repairing the outstanding damage 
totals between $20 million and $40 million.
    So, I want to be clear about something. These are 
individual farmers for whom millions of dollars is a huge 
amount of money, but to Cheniere that amount is barely a 
rounding error. According to Forbes Magazine, Cheniere earned 
$9.3 billion in revenue and has $38.2 billion in assets. The 
amount that it would take to repair the farms that Cheniere 
destroyed to build its pipeline pales in comparison to its 
total corporate worth. It's also a small fraction of what 
they're earning from this pipeline.
    This is a story of David and Goliath. The individual 
landowners have legal rights, but, in practice, FERC allows 
corporate Goliaths like Cheniere to have their way. This is 
business as usual for decades at FERC. The bottom line is that 
FERC has enabled Cheniere, a multibillion-dollar company, to 
withhold from these farmers an amount of money that is chump 
change for them but is life-altering for the farmers. How can 
this go on?
    For the landowners in Oklahoma, FERC is simply not doing 
its job as a public regulatory agency. It's basically working 
for the private companies.
    Oklahoma farmers are not asking for the Moon. They are 
asking for simple vindication of their basic rights in their 
land. They are only asking Cheniere to fix what they broke. 
That's their right.
    I hope that today we will get to the bottom of why that 
hasn't happened yet under such a long-running and well-
developed legal regime that certainly protects the rights of 
the companies.
    With that, I want to thank our ranking member, Mr. 
Sessions, for joining us, and I'm glad that he has arrived. I'm 
delighted that we're launching the work of this subcommittee 
this year with a problem, and hopefully with solutions, where 
we will have broad, bipartisan agreement about the need to 
protect the property rights of American citizens. And I hope we 
can work together on all necessary reforms in a creative and 
cooperative way.
    With that, I now am happy to recognize the distinguished 
ranking member, Mr. Sessions, for his opening statement.
    Mr. Sessions. Chairman Raskin, thank you very much, and to 
our panel and to the members who are prepared today to talk 
about this important subject.
    There's no question that the building of pipelines to 
transport energy to America is a proper use of eminent domain--
the process by which the government can put property to a 
public use after paying just and proper compensation to a 
property owner. That's how things like highways, public 
schools, and public hospitals are built as well.
    But there is a responsibility--as the young chairman has 
noted, there's a responsibility not just under the law but also 
under regulatory agencies to not only do their job but to 
ensure that the public good is represented.
    Let me also say that these companies that do do the hard 
work, that come and do the things that are necessary, must be 
interested in not turning their back on their full 
responsibility. And that is where public policy and proper 
utilization of the free enterprise system combined with the law 
come to meet with eminent domain.
    While Americans may take issue with any particular eminent-
domain project that is conducted, Americans overwhelmingly 
support this balanced approach for not only America's energy 
industry but other industries also.
    In particular, it is the energy industry, because Americans 
need energy at their homes. We need energy, enough energy, 
whether it's above ground or below ground, to make sure that we 
can turn this economy, the world's greatest economy, into not 
only jobs but production on behalf of the American free 
enterprise system.
    Americans understand that natural gas is critical to the 
health and sustainability of the American economy. And for many 
years, we in Texas have gotten used to not only understanding 
that this clean resource that is abundant to this great Nation 
can be utilized in balance with other ways that we provide 
electricity and energy to our country. But, the sustainability 
of the American economy is built around effective use of 
pipelines that safely ensure that the transfer of energy is 
available to all consumers and industry.
    Indeed, one news report about the very pipeline at issue at 
this hearing today states that the property owners affected, 
quote, ``don't cite concerns about climate change or even 
object to having a pipeline on their land.'' Most have already 
been through this. They're fine with that. What they have a 
problem with is that we have to follow up to make sure that 
this balance is achieved.
    In my own state of Texas, property owners have had their 
fair share--or, should I say, unfair share--of negative 
experiences with pipeline projects, just as what we're talking 
about here. It's not a one-on-one basis, but it really gets 
down to that, that we need a better way to look at pipelines 
and oversight.
    This was done years ago as we had pipeline failures across 
my state and very close to the congressional district that I 
was honored to represent. And that is why we have a continued 
opportunity, just as we do today, to not just reexamine but to 
look at and push industry and to push regulators.
    The president of the Texas Farm Bureau, Russell Boening, 
has said, ``We know that we must have the means to move people, 
goods, and energy across Texas, but private property owners 
should be treated fairly'' as they give up their property to 
these sorts of enterprise.
    Mr. Chairman, what we're doing here today did come as a 
result of a bipartisan approach that you have taken. In the 
conversations that we had between your staff and my staff, we 
looked at and you fairly asked us, what would we like to look 
at, what would be within our bailiwick of issues? You accepted 
that. We are doing that today.
    And so I want to thank you. Our relationship is important. 
The relationship of our members to each other is important. And 
for us to work together, it does mean that we don't have to 
agree on the issues but we do have to address them.
    So, I want to personally thank you not only for listening 
to me but listening to us. And there are always examples of 
things we all wish we would do better. Perhaps there are 
failures. But your agreement and the agreement of your staff to 
work on this proposal is one that we appreciate, and I want to 
thank you.
    I would like my full text of my speech that I did not give 
to please be included, Mr. Chairman. I'll make sure you have a 
copy of that. And I want to thank you very much and thank our 
witnesses for being here today.
    Mr. Raskin. Well, without objection, that will be entered 
into the record, Mr. Sessions. And thank you for a very 
thoughtful and significant opening statement, and I thank you 
for your kind words.
    I'll now introduce our witnesses. The first one is Rob 
Squires, who's a landowner advocate at Squires Consulting. Then 
we will hear from Sam Gedge, who is an attorney with the 
Institute for Justice, which is a legal think tank in 
Washington, and I think also in Texas. Next we will hear from 
Christopher Smith, who is the senior VP for policy and 
government affairs at Cheniere Energy. And, finally, we'll hear 
from Terry Luber, who is a farmer in Oklahoma.
    I'm really delighted that all of you have joined us.
    The witnesses will be unmuted so we can swear them in.
    If you would all be kind enough to stand and raise your 
right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that all of the witnesses have answered 
in the affirmative.
    Thank you.
    Without objection, your written statements will now be made 
part of the record.
    And, with that, Mr. Squires, you are recognized for your 
five minutes, and thank you for your patience.

     STATEMENT OF ROB SQUIRES, LANDOWNER ADVOCATE, SQUIRES 
                        CONSULTING, LLC

    Mr. Squires. Thank you, everybody, for having me on. This 
is a great honor.
    So, my name is Robert Squires, and I work in the oil and 
gas industry on the side of landowners who are affected or 
crossed by natural gas pipeline projects, including the Midship 
project and several others. I received bachelor's degrees in 
the fields of sociology and geography from Kent State 
University and received my master's degree in geography from 
Kent State University as well.
    I work closely with other landowner advocates, landowner 
representatives, and landowners themselves to help document 
issues with construction and restoration, notify the company 
and FERC of these issues, as well as guide the landowners 
through cumbersome FERC processes.
    I began working on the Midship project in June 2018, a few 
months before FERC approved the project in August 2018. Since 
then, there have been many noteworthy events that have led us 
to where we are today. I'm going to run through some of these 
events. This is not an exhaustive list, but I would request 
every member of the committee to please look at the attachments 
that I've included in my opening statement.
    So, on August 13, 2018, FERC approved the project. Three 
weeks later, Midship initiated condemnation proceedings in U.S. 
Federal court. A few months after that, in February 2019, 
Midship began construction. In July 2019, FERC issued a stop-
work order on Midship for dozens of repeated or unresolved 
construction-related non-compliances. Later that month, July 
31, FERC allowed Midship to resume construction.
    In April, April 1, 2020, Midship requested FERC to place 
the project into service. Two weeks later, April 13 and 14, 
myself, Midship, FERC, the FERC compliance monitor, and various 
landowners conducted joint inspections of the landowners' 
properties and found numerous restoration issues and project-
wide ongoing noncompliant activity.
    Two days after this, Rich McGuire of FERC's Office of 
Energy Projects approved the Midship request to place the 
project into service in spite of the information that we had 
provided to him.
    On August 11, 2020, Midship reported to FERC that all 
restoration activities had been completed throughout the entire 
project. This set off a series of events involving the 
landowners basically going out and checking Midship's work, 
finding that the work had not been completed, contrary to what 
they had publicly stated to the FERC, going to FERC, notifying 
them. Midship returns to the property, does the same thing, 
tells FERC that it's completed. The landowner has to, on their 
own time and on their own dime, go back out and basically 
continually disprove that Midship is--or prove that Midship is 
lying over and over again about the work they've completed. 
This cycle continues today.
    On March 18, 2021, as Mr. Raskin noted, FERC issued an 
Order on Environmental Compliance toward Midship. This order 
directed Midship to take immediate action to remedy the 
unresolved restoration issues within 60 days of the date of 
that order. As of today, Midship has 13 days left on this 
order, and on every property that I have seen they have done 
work on, they have not made any meaningful advance toward 
actually resolving these issues.
    If there's any takeaway from the above timeline of events, 
it is that Midship has proven themselves to be a company that 
is unable to be regulated. Not only have they treated the 
landowners poorly and their lands even poorer, but they 
disregard orders from FERC time and time again. Even more 
disturbing is the fact that FERC allows them to disregard its 
orders with no repercussions.
    Until March 18, 2021, there had been no inkling of 
repercussions toward Midship's repeated dismay for accepted 
regulations and construction practices. The March 18 order 
makes clear that FERC has the ability and jurisdiction to hold 
Midship accountable.
    Chairman Glick states in this order, and I quote him: 
``There must be consequences when the certificate holder fails 
to adequately fulfill these responsibilities. For instance, we 
can refer the matter to the Office of Enforcement for civil 
penalties. We can also consider whether to revoke their 
certificate of public convenience and necessity itself. In my 
opinion, both options should be on the table if Midship fails 
to promptly resolve its outstanding obligations to 
landowners.''
    I wholeheartedly agree with that statement. If Midship 
cannot resolve these things within the next 13 days, they must 
be shut down.
    Every landowner will tell you the same thing. Midship 
approached them with an initial offer; the landowner wanted 
more. Midship came back a month later or so with a lower offer, 
and the landowner refused. Midship said, ``We will condemn you, 
and you will have no say-so because it is a FERC pipeline.'' 
The landowners did not sign and, thus, were brought into an 
eminent domain proceeding. This initial unreasonableness 
carried over into nearly every aspect of the project from that 
moment forward.
    These Oklahoma landowners are not in any way adverse to the 
oil and gas industry. Many of them have several pipelines or 
gas wells on their property already or work in the industry 
themselves. They just want to be treated fairly.
    Every landowner I have talked to echoes this sentiment, 
that they have been taken advantage of through complex 
processes, legal intimidation, and Midship's ability to 
manipulate the facts on the ground----
    Mr. Raskin. Thank you, Mr. Squires.
    Mr. Raskin. We're going to come now to Mr. Gedge.

 STATEMENT OF SAMUEL B. GEDGE, ATTORNEY, INSTITUTE FOR JUSTICE

    Mr. Gedge. Thank you, Chairman Raskin, Ranking Member 
Sessions, and members of the committee.
    My name is Sam Gedge. I'm an attorney with the Institute 
for Justice. We're a nonprofit law firm that litigates to 
protect private property rights, and one of our areas of focus 
is combating eminent domain abuse.
    Unlike my co-panelists, I'm not going to talk today about 
the Midship project specifically. Rather, I'd like to focus on 
a couple of examples of the broader systemic imbalance between 
pipeline companies that exercise eminent domain and the private 
landowners that have the misfortune of finding themselves in 
the way.
    First, at a structural level, condemnations by pipeline 
companies are far more disruptive and far harsher than 
condemnations executed by the Federal Government itself, and 
that's because, unlike the Federal Government, pipeline 
companies get to take land first and pay later. In this way, 
pipeline condemnations differ fundamentally from every other 
type of eminent domain exercised under Federal law.
    Ordinarily, when the Federal Government itself wants to 
exercise eminent domain, landowners get compensated before the 
government enters on their property. Under a straight 
condemnation, for example, the government doesn't get your land 
until the courts have determined the value of the property and 
until after the government has paid you.
    Likewise for what's called ``quick take,'' which is a 
speedier form of condemnation. There, the government can get 
immediate access to private land, but the government also has 
to pay the landowners immediately. Up front, the government has 
to pay a fair estimate of the value they're taking.
    In short, when the Federal Government condemns property, 
Congress has gone to great lengths to ensure that payment 
predates possession--in other words, that landowners get 
compensated before the government enters on their land. That's 
only fair.
    But things are entirely different when it comes to pipeline 
companies. Routinely, pipeline companies file condemnation 
actions under the Natural Gas Act and secure what are called 
preliminary injunctions against private property owners. Those 
injunctions entitle the pipeline companies to immediate access 
to the land they want, yet, critically, the injunctions impose 
no immediate obligation on the companies to pay the landowners. 
It's take first and pay later, with ``later'' being months or 
even years down the road.
    This state of affairs is profoundly unfair and profoundly 
unjust, and it follows, candidly, from the Federal courts 
misreading the Natural Gas Act.
    When a pipeline company enters on your land, it imposes 
serious and immediate burdens. Landowners find themselves with 
construction equipment on their property, they find themselves 
with debris strewn about, with wildlife killed and left to rot, 
and, of course, with the loss of the sense of security that 
comes from being on your land and knowing that no one can take 
it from you. The least we can expect of pipeline companies is 
that they pay people before they visit those burdens on them.
    Across the Nation, though, pipeline companies accelerate 
the parts of eminent domain that they like, the taking part, 
while slow-walking the part that they're less excited about, 
the payment part. And without congressional intervention, the 
Federal courts have made clear that they're willing to let 
those land-grabs continue.
    Not only do pipeline companies enjoy this take-first-pay-
later dynamic, but they can also take land even if the pipeline 
might never get built. Now, in your run-of-the-mill taking 
case, the government doesn't get to take your property until 
they get the necessary approvals to actually build the project, 
but here, too, pipeline companies are different. Because under 
the pipeline permitting process, FERC can say to a company, 
``You have our permission to build your pipeline, but that 
permission is conditional on getting a bunch of permits from 
other agencies over there,'' and, on the basis of that 
conditional permit, the pipeline companies instantly get the 
full power of eminent domain. What that means is that they can 
immediately enter on your property, take easements, tear up 
your land, even though the property might ultimately--the 
pipeline, rather, might ultimately never get built.
    Now, these are just two examples of what I think is a 
broader phenomenon: pipeline companies exploiting FERC and 
exploiting the Natural Gas Act to disadvantage private property 
owners. This is a national problem that can take place in any 
district. Certainly we're aware of similar issues in Texas of 
particular concern to Ranking Member Sessions.
    At the best of times, eminent domain is disruptive and is 
harsh and often falls hardest on people who lack political 
clout. And when it comes to pipelines, the eminent domain power 
is a product of Congress. And, for that reason, the scope of 
that power and abuses of that power are, we believe, a strong 
candidate for congressional attention.
    Thank you.
    Mr. Raskin. Excellent. Thank you very much, Mr. Gedge, for 
your testimony.
    Next we'll hear from Christopher Smith, Mr. Smith, from 
Cheniere Energy.

 STATEMENT OF CHRISTOPHER A. SMITH, SENIOR VICE PRESIDENT FOR 
     POLICY, GOVERNMENT AND PUBLIC AFFAIRS, CHENIERE ENERGY

    Mr. Smith. Thank you very much, Mr. Chairman.
    So, Chairman Raskin, Ranking Member Sessions, and members 
of the subcommittee, my name is Christopher Smith, and I'm the 
Senior Vice President for Policy, Government, and Public 
Affairs for Cheniere Energy.
    Cheniere is the largest exporter of liquefied natural gas 
in the United States. Since we began operations in 2016, our 
LNG has helped displace dirtier fuels like coal, cleaning the 
air and cutting carbon emissions, while enabling the deployment 
of renewable energy. The American energy infrastructure we are 
building represents a more-than-$30-billion investment, 
creating thousands of jobs, supporting suppliers across the 
country.
    One of the infrastructure projects that we have undertaken 
is the Midship Pipeline, an approximately 200-mile natural gas 
pipeline in Oklahoma. Unlike our typical projects, it is not 
connected to our facilities, nor directly to our LNG 
production, but, rather, is a separate investment in the larger 
natural gas transportation system, providing access to new 
markets for Oklahoma's abundant natural gas.
    Since this project was announced, we have worked to 
proactively engage with landowners and over 1,000 stakeholders 
in total so they're informed, involved, and heard throughout 
the process. Because of that work, we've enjoyed a positive 
relationship and a two-way dialog with the majority of 
landowners throughout this project and have been able to 
quickly address their concerns.
    I want to assure the committee that we're doing everything 
we can to resolve the issues identified in the FERC order, and 
we have dedicated a team working around the clock to do so. In 
fact, today we have several members of the team in Oklahoma 
meeting face-to-face with landowners.
    Under our FERC certificate, we are required to restore 
land, and I want to provide an update on those efforts. Just to 
give the committee perspective, the pipeline project is a total 
of about 200 miles, and today we're talking about approximately 
21 miles identified in the FERC order that require restoration. 
As of today, over 75 percent of the identified tracts in the 
FERC order have either been completed or are awaiting 
inspection results from FERC or have reached agreements for 
alternate arrangements.
    Midship is engaged in FERC's voluntary third-party 
compliance program, where FERC monitors are on the ground 
reviewing our work along with our environmental inspectors and 
those retained directly by landowners. We currently anticipate 
meeting all of our restoration obligations under the order by 
the May 17 deadline, with the important caveat that alternate 
arrangements are being pursued in some of those cases.
    Ahead of the March order, we voluntarily entered into the 
FERC's Alternate Dispute Resolution process, known as ADR. This 
process yielded success, as we have entered into ADR with many 
additional landowners with whom direct discussions have 
stalled. We've also engaged in dozens of bilateral settlement 
discussions that have resulted in successful resolution.
    There's a clear path forward that all parties are following 
to meet the goal of completing remaining restoration work 
identified in the FERC order or reaching alternative 
arrangements in compliance with relevant FERC requirements.
    As we speak, active negotiations are occurring on the 
ground between landowners and project representatives. So, 
while I will do my best to address the overall progress that we 
have made, I want to protect the productive process that we 
have established and with which we are coordinating with FERC.
    We understand and take seriously the concerns voiced by 
specific landowners as well as by this committee. Midship hears 
those concerns, and we are taking all reasonable steps 
available to remedy and resolve the remaining challenges as 
part of our responsibility to landowners.
    Again, thank you, Mr. Chairman, for the opportunity to 
appear before the committee, and I look forward to fielding 
your questions.
    Mr. Raskin. OK. Thank you.
    And, finally, we will hear from Terry Luber.
    Mr. Luber, you have five minutes.

           STATEMENT OF TERRY LUBER, OKLAHOMA FARMER

    Mr. Luber. Thank you, everyone. Good morning.
    In August, this farm I own is going to be in the family for 
111 years, and I'm the fourth generation. I had it for three 
months before Midship came in and destroyed it.
    I have a series of terraces and a water well on my 
property. And the terraces, they drain the water and save the 
silt. The waterway does the same thing; it's just a larger 
drainage ditch. It carries the water off the property.
    Midship let this go unchecked with soil retention measures 
and actually just destroyed it. There are so many metric tons 
of soil gone that I had to use my topsoil that they piled on 
the side to fill the waterway and let it erode away again. So, 
I mean, it's basically--it's unfathomable how much it's going 
to cost to fix that.
    They've been in several times and showed they're inept. One 
of their inspectors, compliance inspectors, from FERC, came out 
and was standing on the waterway and asked me what a waterway 
and a terrace is. I mean, how can you write the rules--this 
person said they wrote the rules for this. How can you do that 
and not even know what a waterway and terrace is?
    On the other end of the property, I have a gate opening. 
It's about 40-foot-wide. They were warned with emails and 
verbally that this needed to be a hard crossing. I bring a semi 
in and heavy trailer with a track hoe and, say, a dozer. And 
they cut the bore section in the middle of the gate. So, 
basically, what I have is soft dirt on half the side of the 
gate and solid dirt on the other side.
    When the semi swings in, they always have to swing wide, 
and you have the potential for the wheels on the trailer or the 
truck to sink in on the soft side. They dug a hole for their 
weld joint 40-foot-across, 70 feet wide, and 11 feet deep. So, 
that pipe is suspended four feet, probably, from its bottom in 
unstable soil.
    So, a potential rollover, the driver may survive. If it 
dents the pipe, the pipeline is damaged. If it breaks at the 
weld joint, which is a distinct possibility, and you have a 
flare-up, that driver has absolutely, has no chance of 
survival.
    The creek is less than a football field away, and you're 
going to have thousands of barrels of liquid natural gas 
pollute the creek, and it will go for miles. And that's what 
people, you know, water their livestock and stuff. It's 
everybody's livelihood.
    They cut trees and left them in the floodplain. I asked 
them to move. Some of them floated out in a flood, got on the 
west-side creek bank, which is about 30 feet high, and we lost 
about 10 feet of soil on the creek bank. We haven't lost that 
much in 50 years.
    The environmental issue because of that will surely make 
the national news. And I don't want anybody killed on my 
property. And they had fair warning. And I don't know how we're 
going to fix that now. It's the only place I can have that gate 
gap to get to the west end of the creek.
    These people absolutely knew they were going to get eminent 
domain. And this is no different than, if you think about it, 
someone coming to your door, kicking the door in, making you 
stand there and watch while they destroy everything you care 
about that's been in your family for generations and walk off 
and say, ``You better be glad we didn't do anything more.'' 
They knew they could get eminent domain.
    There are so many issues there's no way I can get it in in 
five minutes. I would invite everyone to look at the statement 
that I sent in, the written statement. And, like Rob said 
before, the contract is--they use the fear factor like a sword.
    And thank you.
    Mr. Raskin. Mr. Luber, thank you. You do have--you did have 
one minute left, if you wanted to conclude.
    Mr. Luber. Well, I can tell you this much. If we wouldn't 
have had Central Land's services, I don't think we ever 
would've got to this point. They were relentless.
    And I want everyone to know that the Midship attorneys used 
the fear factor all the way through this entire event. I'm sure 
they got many, many landowners to sign because of the fear 
factor that they used. It was intimidating all the way through.
    And I think you're on the right track to give the 
landowners some say. I had zero say and zero help from FERC.
    Thank you.
    Mr. Raskin. Thank you very much for your testimony.
    And now we will go to member questioning, and we will begin 
with my questioning. I'm going to recognize myself for five 
minutes for questions.
    Let's see. Mr. Gedge, let me start with you. You describe 
this whole ``take your property now and pay you for it later, 
maybe'' system as profoundly unfair and unjust. I've got two 
questions about it; one is constitutional.
    Has anybody ever challenged what you describe as this 
unique process that the pipeline companies get through FERC as 
a violation of the Fifth Amendment Takings Clause? Why doesn't 
this violate the Fifth Amendment?
    And then, second, if this has been litigated and 
adjudicated, then what is it Congress would need to do to at 
least get people in Mr. Luber's situation the same rights that 
other property owners get in terms of getting paid up front?
    Mr. Gedge. Right. Thank you, Mr. Chairman.
    I think the constitutional argument would be a heavy lift 
for a couple of reasons. First, since I think the 1880's or so, 
the Supreme Court's said that under the Fifth Amendment there 
is no requirement that payment, that just compensation, predate 
the actual taking. So, as a constitutional matter, that seems 
like it's probably off the table under current doctrine.
    As a practical matter, moreover, lots of property owners 
just don't have the opportunities to raise all of the defenses 
they might have because--and this is, I guess, a little bit 
outside the scope of my testimony--but because there are 
serious notice problems, and a lot of people who end up being 
targeted for eminent domain in these situations have 
unwittingly lost the opportunity to seek judicial review of 
many of the issues that they might be able to.
    So, I think, as I said, the Fifth Amendment issue is a 
difficult one----
    Mr. Raskin. OK, OK. All right, good. Well, we'll be 
interested to hear from you about what you think a good 
legislative fix would be for that. I'll come back to you.
    Mr. Smith, what is your company's incentive to repair and 
restore people's land, like Mr. Luber's land, when the 
pipeline's running and you guys are, you know, making money 
hand over fist on it now? What is your incentive to clear up 
the problems you've created on their land?
    Mr. Smith. Well, thank you so much, Mr. Chairman, for that 
question.
    So, when we think about Cheniere's business model and how 
we operate--so, over the course of the last decade, we've put 
in place around $30 billion worth of assets. In order to do 
that effectively, it requires us as a company to create 
sustainable, sustained, long-term relationships with a very 
wide range of stakeholders, be that off-takers, customers----
    Mr. Raskin. Why are the relationships so terrible with 
these farmers now?
    Mr. Smith. Well, to that point, Mr. Chairman, there are 
going to be some points of question here in this hearing that 
at this time I'm not going to have complete, satisfactory 
answers to. When I look at what our standard is as a company 
and the successes that we've had as a company in creating those 
type of long-term relationships for our corporation----
    Mr. Raskin. OK. Forgive me for interrupting, but when I 
spoke to you guys before, I asked you what percentage of the 
work in the March 17 order had been deemed complete, and 
several Cheniere executives could not tell me, said that they 
couldn't provide me even with ballpark numbers of what 
percentage of the work had been completed.
    In a followup discussion, your staff said it would be able 
to provide those percentages in weekly updates. Since then, two 
weeks have passed where we've not gotten any weekly updates.
    Your staff said those numbers would be included in your 
written testimony today. They were not included.
    Hey, look, if you can't keep your promises to us and the 
whole world is watching, what should make us believe you're 
going to keep your promises to people like Mr. Luber when 
nobody even sees what's going on?
    Mr. Smith. Well, Mr. Chairman, we are making progress on 
the list of issues that were identified in FERC and that 
compliance order in Appendix A. So, in that order, there were 
56 tracts that the FERC monitors identified that we had to 
address. And so, right now, as we speak, literally at this very 
moment, we have crews on the ground, we have our folks that are 
in Oklahoma talking to landowners, sitting at their kitchen 
tables, walking their land, discussing these issues as we 
speak. And of the 56----
    Mr. Raskin. Well, that sounds great. What percentage of the 
work in the March 17 order has been deemed completed?
    Mr. Smith. So, of the 56 items, of the 56 tracts that were 
identified in that order, we have already addressed 41 of those 
tracts. So, of the 56, we've addressed 41.
    Mr. Raskin. When you say you've addressed them, what does 
that mean? You've completed the work?
    Mr. Smith. So, what that means, Mr. Chairman, is the work 
has either been completed or that we are awaiting inspection 
from the FERC monitors.
    So, we are working with FERC as the referee. Their folks 
are on the ground to make sure that they're identifying any 
issues that might be----
    Mr. Raskin. OK. Forgive me. I just have a moment left.
    Mr. Luber, let me come to you finally. Tell me how the 
power of eminent domain that's basically been delegated to the 
companies through this FERC system, tell me how that power has 
affected your rights and the state of your land today.
    You've got to unmute, if you would, Mr. Luber.
    Mr. Luber, I'm afraid we can't hear you.
    Ms. Tlaib. Mr. Luber, it's just--the unmute button, if you 
see the red mic, you can see a little X or a little slash on 
the red mic. Just click on that. I think you have it in front 
of you.
    Mr. Raskin. Do you see the little unmute function?
    All right. Well, I'll tell you what. While you guys search 
for that----
    Mr. Luber. Sorry.
    Mr. Raskin. Oh, there you go.
    Mr. Luber. I'm sorry. I'm here.
    Mr. Raskin. OK.
    Mr. Luber. I touched something, and it took me out. I'm not 
very technologically wise.
    OK. It affected me in incredible ways. If I had to pay out 
of pocket to fix the stuff that Midship tore up, it would cost 
me almost as much as the farm is worth. And----
    Mr. Raskin. So, you'd have to sell the entire farm to fix 
the farm, you're saying.
    Mr. Luber. That's basically it. I'd pay twice for my farm.
    And I forgot a while ago, I was a pipeline inspector for 
eight years, so I know what I'm looking at. And so, I mean, I 
know what these people have done, and I know what pipeline 
practices are, and this wasn't it.
    Mr. Raskin. All right.
    Yes, let me just say finally, you seem like a pretty 
reasonable guy. Did you try to operate with them in good faith 
and say, look, you know, you've torn up the land, we need you 
to put it back, and so on? I mean, you don't seem like an 
especially litigious guy.
    Mr. Luber. No. I've worked in----
    Mr. Raskin. Were you trying to work with them?
    Mr. Luber. I worked in the oil field for eight years as an 
inspector, and I worked I don't know how many years as a 
contract welder. I'm not against pipelines at all. And I want 
to try to get along. But once I balked on their first offer, it 
absolutely went downhill after that, and to no good end. All I 
got was lip service out of them.
    Mr. Raskin. Yes. OK. Thank you very much.
    My time has expired, and, Mr. Sessions, I turn it over to 
the ranking member now.
    Mr. Sessions. Mr. Chairman, thank you very much.
    Not only to our three witnesses, Mr. Gedge, Mr. Luber, and 
Mr. Smith, I want to thank you. Your testimony taken by itself, 
notwithstanding the entire project, is what I think our young 
chairman is focusing on and I would like to also.
    But I would like to ask Mr. Smith: Mr. Smith, the need of 
our Nation is great. The need to make sure that we have not 
only pipelines but that we have safe pipelines and that we get 
our product to consumers is very important.
    You have heard Mr. Gedge to outline some of his ideas, 
notwithstanding about maybe the way courts are interpreting the 
Natural Gas Act, but he outlined a rather broad spectrum and 
that is an agreement to look at the law of, up front, there is 
a better agreement and understanding, I would say, that's a 
more balanced approach.
    But can you talk with us about the impact of what Mr. Gedge 
has said?
    Because the reasonability of a balanced approach, I think, 
is what not just Americans want but what we would want in the 
law. We would want the law to fairly be on the side of the best 
interest of consumers, which means properly applying what might 
be these rights to come in and get land, but once that is 
achieved, that process would be fair.
    Mr. Smith, would you mind taking a minute and talking with 
us about a level playing field from a perspective of someone 
that does pipelines?
    Mr. Smith. Well, thank you very much, Congressman, for that 
question. There's a lot there in that question, so I'll try to 
address the questions that you're asking or the spirit of the 
question.
    So, in my previous life before I came to Cheniere, I was a 
regulator. I was with the--or had some regulatory 
responsibilities as an official in the Department of Energy, 
and I've worked with FERC on projects like this. And one thing 
I can say firsthand is that there is, from the regulator's 
point of view, there's a terrifically difficult and important 
piece of work they have to do in terms of determining the 
public interest.
    And determining the public interest means they have to 
quantify it, they have to make sure it's consistent with 
statute, they have to make sure it's consistent with court 
cases, and then they have to put forth a series of regulations 
that then quantifies that in a series of steps that can be 
followed----
    Mr. Sessions. Do you believe that's a balanced process, 
currently, that FERC has as their mission?
    Mr. Smith. Well, I would demure on opining on, you know, on 
the law as written by Congress or interpreted by FERC, who 
regulates us, with all respect, Congressman.
    What I'll say is, I do know that they have an important 
balancing act to make sure that these important infrastructure 
projects get built that are going to create jobs but also 
ensure the energy that our country needs, at the same time 
making sure that there's a process to protect the landowners 
and other stakeholders in the community. It's not just 
landowners; it's other groups that might be impacted in some 
way by this infrastructure.
    So, that's FERC's job. And if you look at, you know, what 
the Natural Gas Act says and if you look at the way that that's 
been interpreted by FERC, that is what they're endeavoring to 
do in all of their environmental impact statement requirements 
and their certification processes. They're trying to create 
that balance.
    And I, again, firsthand, can say that that is--that's 
difficult but very, very important work the regulator has to do
    Mr. Sessions. OK.
    If you could move, then, directly to a pipeline company and 
how you feel like--and, Mr. Chairman, I think this is really 
important in this hearing, is to equally hear--we have heard 
some other problems. And Mr. Luber--I greatly appreciate his 
not only perceptions but the actual realities
    Mr. Smith, how would we have balanced this in looking at 
this process? I understand--look, I was with a large company. 
We didn't do everything right. But we did what you say you're 
doing, and that is trying to pay attention, focus on it, and 
fix it.
    What would the upfront changes be that you have heard about 
today of a balance that would offer more balance between your 
need, your desire, FERC, and the landowner?
    Mr. Smith. Well, here's what I can say to that question, 
Congressman.
    You know, in the chairman's question, you know, he asked us 
about our progress on Appendix A of the FERC order. We're 
making progress. We are moving forward. You know, we have moved 
through over 70 percent of the issues that have been identified 
by FERC in that order in the period that we have, with the goal 
of making sure that we comply with that order by the deadline, 
which is the 17th.
    Your broader question is--I would say that it is certainly 
in our best interests to do this well. And I can say that, as I 
compare other endeavors that our company has had and the types 
of long-term relationships we've created and if I compare that 
with, you know, from what I'm hearing from Mr. Luber and from 
Mr. McElvany and Mr. Morris that we saw in the video that the 
chairman put out a couple days ago, that's not consistent with 
the standard that we need to reach in order to make sure that 
we're operating properly.
    So, there are some things that we will have to do 
differently. And we will understand that better after we finish 
the important, vital, immediate mission of making sure that we 
remediate the problems that are in front of us right now. 
Because after these things are fixed, we're going to have to 
come back and make sure that, over time, that the remediation 
that we've put in place has worked, that the vegetation's grown 
back, the erosion is stable, that all these other things are in 
place. And that is a multiyear engagement that we're going to 
have with all these landowners. And we need to do that well.
    So, that's the best answer I've got to that, Congressman. 
And I'm sure that there will be--you know, there will be 
further dialog in this committee about that issue.
    Mr. Sessions. Mr. Smith, thank you very much.
    Mr. Chairman, I would yield back my time and appreciate the 
young chairman for allowing us--Mr. Smith the time to complete 
his testimony on this question.
    Thank you, Chairman.
    Mr. Raskin. Thank you so much, Mr. Sessions.
    We come now to Ms. Wasserman Schultz for her five minutes 
of questions.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    And I thank you for the opportunity to have this hearing. 
This is not an issue that most of us are exposed to from around 
the country, and the egregious treatment of farmers by Cheniere 
is really an important topic, especially because it's caught 
the attention of FERC, really, clearly, to have them take 
unprecedented steps compared to other cases that are similar.
    The farmers who are affected by Cheniere's seemingly 
reckless disregard for their legal and moral obligations, 
they're not strangers to pipeline companies. And listening to 
the testimony, many of these landowners have multiple pipelines 
running through their land and have had much more cooperative 
interactions with other companies.
    So, Mr. Luber, I appreciate the really lengthy commitments 
that your family has had to your farm and really the 
imposition, which is the mildest word that I could use, the 
impact that that's had on you. But what you can you say about 
how Cheniere's behavior toward landowners compares to other 
pipeline companies?
    Mr. Luber. Well, I've got some other pipelines on my 
property now that came after them, and I didn't have any 
troubles with them. Normally, they negotiate with the landowner 
their wants and needs. And no one knows how to take care of the 
land better than the landowner. And I will say that most 
pipeline companies all think they know better.
    But I was not consulted about anything. Anything I asked 
for was deaf ears, you know, lip service. And this truly is a 
David and Goliath story. They did not try to do anything right. 
And I believe, out of spite, because I got them to do that 
bore, I believe that's why they cut that pipe in the middle of 
my gate opening and made a mess out of that. And that's the 
only place I can have that gate. And I have no idea how to 
resolve that.
    Ms. Wasserman Schultz. And, as you said, it's very clear 
that they operated with, you know, a background of fear, 
because they knew that they could just take your property by 
eminent domain unless you just rolled over and agreed to 
whatever it is that they had proposed, correct?
    Mr. Luber. That's exactly. I mean--and once I refused that 
first offer, everything just was just a disaster. And they 
blamed it on Central Land, they blamed it on the landowners, 
they blamed it on the weather. We did have very inclement 
weather through that, but--I worked with so many different 
pipeline companies. Everything, you just use common sense. They 
didn't do any of that.
    And I have, I don't know, 1,000 to 1,500 pictures and some 
videos to prove every bit of what I said.
    Ms. Wasserman Schultz. Well, I mean, to me, it seems like 
Cheniere has adopted an unnecessarily hostile stance toward 
landowners who would've otherwise been happy to have a 
cooperative working relationship with them.
    We've heard that Cheniere forced lowball offers onto 
farmers by immediately seeking to exercise their eminent domain 
powers in court rather than negotiate with landowners. In my 
experience as a legislator, that's not how the eminent domain 
process is supposed to work. There's supposed to be a 
negotiation first. And, you know, I understand that sometimes 
there are unreasonable landowners, but it seems like----
    Mr. Luber. Yes.
    Ms. Wasserman Schultz.--this was used, like you said, as a 
weapon.
    One farmer, Mark Morris, has several pipelines on his 
property, and he called Midship the worst they've ever seen. He 
said Cheniere refused to negotiate with him and said they feel 
they're above the law.
    Mr. Smith, do you think Cheniere is above the law?
    Mr. Smith. Well, thank you for that question, 
Congresswoman----
    Ms. Wasserman Schultz. It's just a simple yes-or-no 
question. Do you think Cheniere is above the law?
    Mr. Smith. No.
    Ms. Wasserman Schultz. OK. So, if you're not above the law, 
then I assume you'll be fully complying with FERC's March 2021 
order and restoring the farms by May 17 unless otherwise agreed 
to by a particular farmer. Is that correct? I mean truly 
restoring, not restoring by your definition, but by the 
farmers' definition or by a mutually agreed definition.
    Mr. Smith. Yes, we will be fully complying with the FERC 
order and meeting the deadline set in that order.
    Ms. Wasserman Schultz. OK. Because my understanding is that 
there are definitely discrepancies where landowners are 
saying--you're saying that you complied with that and restored 
their land and they're saying you're not. So, we're going to 
hold you to that, and, clearly, FERC has said they're going to 
hold you to that.
    The egregious behavior of Cheniere toward Midship farmers 
is really just totally unacceptable. And, I mean, for--just 
important to point out, in just the last year, Cheniere has 
invested at least $100 million into Midship Holdings and is 
still unwilling to make many affected landowners whole.
    For the FERC Chairman to call for unprecedented 
consequences, going as far as considering the revocation of a 
pipeline certificate, clearly demonstrates the egregiousness 
with which Cheniere has treated landowners in the pathway of 
the Midship Pipeline.
    Mr. Chairman, thank you for the opportunity to highlight 
this really important issue. It impacts the environment. It 
impacts landowners' rights. And it certainly, as evidenced by 
the ranking member's comments, is not a partisan issue.
    I appreciate the opportunity. I yield back.
    Mr. Raskin. Thank you, Ms. Wasserman Schultz.
    I yield now to my friend from Louisiana, Mr. Higgins, for 
his five minutes of questioning.
    Mr. Higgins. I thank my friend and colleague, Mr. Chairman, 
and I thank the ranking member for holding this hearing today. 
It's very important.
    But, Mr. Chairman, I don't like eminent domain. And I'm 
certain that if the Founders were with us today they would 
agree that eminent domain, seizure of private property, should 
be a last resort, and, if used, the landowners' rights should 
most certainly be aggressively protected.
    And that being said, I also recognize the significance of 
major projects that are vital to our national security and 
economic prosperity.
    So, striking a proper balance is--you and I have spoken at 
length about this, and I believe we concur that there should be 
a balance. And we certainly have an appropriate role to play in 
Congress regarding oversight.
    I would like to state for the record that the pipeline 
owner, Cheniere, has a facility in my district and is widely 
seen as a welcome member of the community. They've participated 
in promoting educational achievement through scholarship 
programs and apprenticeships. They've made major investments in 
local infrastructure. They were fast on a scene whenever a 
hurricane comes through. After Hurricane Laura and Delta, they 
were on the ground in southwest Louisiana helping folks in 
need.
    So, it must be stated that the company that's being 
scrutinized today, my experience with them in our community has 
been very positive. And yet we have a role to play. And they 
should welcome this--they should welcome this level of 
congressional oversight and inquiry, and I expect that they do.
    Mr. Squires, I have a couple of questions for you, sir. And 
I thank you for coming before the committee today, and I thank 
you for the work that you do on behalf of landowners. It's an 
important role that you play.
    In your statement, you made it clear that you advise--
you're very well-versed in how the FERC regulatory process 
works, correct, including how the regulatory process works in 
case of disagreement? Mr. Squires, is that a fair assessment?
    Mr. Squires. Yes. I would say so.
    Mr. Higgins. OK. So, even if land is taken by eminent 
domain, which I've already given my opinion of, or through 
signed easements, FERC encourages the developers to remain 
actively engaged directly with landowners involved in the 
project.
    This is a simple question. It may be a little uncomfortable 
for you, but all of this is on the table. While working on 
behalf of your clients, have you or the representatives of your 
company prohibited Midship and Cheniere from directly engaging 
with landowners? And, if so, wouldn't that cause a delay and 
wouldn't that hamper the potential progress of reaching an 
actual goal of agreeing on what restored land would be?
    Mr. Squires. I personally have not forbade Midship or 
anybody from reaching out to the landowners. Specifically, we 
have encouraged Midship to reach out to the landowners, 
specifically recently. But I personally have not, you know, 
prohibited Midship----
    Mr. Higgins. So, as far as you know--thank you for your 
candor, sir. And, again, I thank you for the work you do. So, 
as far as you know, Midship or Cheniere has not been restrained 
from direct communication with landowners by your company or 
representatives of your company?
    Mr. Squires. Yes, as far as I know. Yes. Now, the----
    Mr. Higgins. OK.
    A final question for you, sir. Regarding the values of 
lands and compensations for condemned land, are you aware that 
Midship/Cheniere has placed into an escrow account in court an 
amount equal to--my research indicates is double the appraised 
value for landowners whose properties have been condemned 
through eminent domain? Are you aware of that escrow?
    Mr. Squires. Yes. They call that a bond. Yes.
    Mr. Higgins. And so would you think that that property 
assessment was valid? Is that an act of good faith on the part 
of the pipeline, to place that money in an escrow account at 
double the value of the land?
    Mr. Squires. It is an act in good faith, but it is also 
required by law. You know, for the injunction to take place, 
they need to put up that bond amount. And that is based on----
    Mr. Higgins. Sure. And we've been advised that everyone 
intends to follow the law. I'd see no reason to doubt that.
    Mr. Smith, in my remaining time, as I stated, Cheniere has 
an excellent reputation in the community, and I'm concerned as 
to why that perhaps is not the case in Oklahoma.
    Would you share with America what your personal intent is 
regarding resolving the remaining issues with landowners? Do 
you care about these landowners? Does Cheniere cultivate good 
relationships with pipeline-impacted communities? Are empathy 
and compassion driving factors?
    These are some of the thoughts on my mind. And in my 
remaining time, please respond there, Mr. Smith.
    Mr. Smith. Well, thank you, Congressman, for the question.
    So, certainly, the standard that we have reached in 
building and commissioning facilities--and it's being passed in 
your district, Mr. Congressman, and in Corpus Christi, Texas--
that standard of long-term successful outreach to the community 
that has created those types of bonds, we have not reached or 
achieved that standard in Oklahoma on this project. And we are 
doing everything in our power to make sure that we are 
complying in a way that brings us to our normal level of 
standard.
    We have put our most senior business development executive 
on this project. And, Mr. Chairman, when you spoke with us a 
couple of weeks ago, you had an opportunity to talk to Mr. 
Wyatt, who, again, is our most senior business development 
officer of the company.
    We've got teams that are on the ground as we speak at this 
moment. We've got crews on the ground as we speak at this 
moment. We are doing everything that we can to make sure that 
we comply with this compliance order, with the goal of making 
sure we're creating the right type of long-term relationships--
--
    Mr. Raskin. Thank you. Thank you, Mr. Smith. And the 
distinguished gentleman's time has expired.
    I'm coming to Ms. Kelly for her five minutes of questions.
    Mr. Higgins. Thank you, Mr. Chairman.
    Ms. Kelly. Thank you, Mr. Chairman.
    And welcome, to the witnesses.
    Representatives from Midship and Cheniere assert that one 
of the reasons restoration has taken so long is that a group of 
landowners banded together to hire someone to advocate on their 
behalf. According to Cheniere, having to deal with these 
experienced advocates, quote/unquote, ``thwarted'' the 
settlement talks.
    For the record, Cheniere is a $38.2 million company and the 
number-one liquefied natural gas producer in the country.
    Mr. Luber, you are a part of the group of landowners who 
hired consultants to represent you. Why did you decide to join 
that group and hire outside help?
    Mr. Luber. We were absolutely outgunned, as a landowner. 
They hired the best attorneys. I mean, all the way through, 
they have used the best attorneys. And we didn't have a chance, 
if it wasn't for Central Land.
    You know, it was such a lowball offer and such quick timing 
on it. It was so unfair. And it was just our decision, my wife 
and I, that we would go ahead and fight it out with Central 
Land. And that's been a real blessing.
    Ms. Kelly. Thank you.
    Mr. Squires, you have a lot of experience with the FERC 
process and natural gas pipelines. How easy or difficult would 
you say it is for a landowner who doesn't have your level of 
expertise to figure out the FERC process?
    Mr. Squires. I would say it is extremely difficult. One, 
most of the landowners don't even use email. So, you know, 
getting online, figuring out how to go through the many-step 
processes that involves even filing to the FERC docket is a 
lengthy process.
    Ms. Kelly. Thank you.
    What are the advantages of landowners banding together and 
seeking out an advocate for help with negotiations with 
pipeline companies in general?
    Mr. Squires. I think it's beneficial. You know, we're not 
really there to be the negotiators but there to be their eyes 
on the scene, to watch the construction, to monitor the 
restoration, to make sure essentially that the company is doing 
the right thing, you know, per the FERC guidelines or per, you 
know, any other guidelines that they're supposed to adhere to.
    Ms. Kelly. Sure.
    The FERC process allows natural gas companies to seek 
eminent domain, as we've been speaking of, so that they can 
acquire rights to private land in court--a power usually 
reserved for the government.
    Mr. Smith, if someone took a member of your family to court 
to assert eminent domain to take part of their land, would you 
want them to have someone experienced to represent them?
    Mr. Smith. Well, thank you for that question, 
Congresswoman.
    Yes, I would. And----
    Ms. Kelly. OK. Thank you. That's all I needed.
    If your family member hired a representative, that person 
would presumably be the one dealing with the company and 
advocating on your behalf. Isn't that what they're there for?
    Mr. Smith. Yes.
    Ms. Kelly. OK.
    It doesn't surprise me at all that it's been easier for you 
to reach agreement when you have isolated negotiations with 
individual landowners that don't have the same resources or 
experience as your company. It sounds to me that what Cheniere 
is really upset about is that some landowners are refusing to 
be steamrolled.
    In addition to blaming the farmers' advocates for delay, 
Cheniere has also accused landowners of purposely flooding 
their own land.
    Mr. Luber, would you ever flood your own land on purpose?
    Mr. Luber. No, ma'am. I would never do that.
    And I have never told them they couldn't do what they 
wanted to do, even though I knew it was wrong. And I would like 
to add that they used some real estate that was sometimes 20 
feet out of their permit. They were out of compliance. And FERC 
never addressed it, and neither did they.
    Ms. Kelly. And you want your land to be fixed as quickly as 
possible, I would assume.
    Mr. Luber. Absolutely. And I know what it looked like 
before. I've lived there all my life almost.
    Ms. Kelly. And flooding it would delay restoration even 
longer. Isn't that correct?
    Mr. Luber. That is correct. And I don't know a farmer in 
this world that's dumb enough to do that.
    Ms. Kelly. I agree. This theory from Cheniere makes no 
logical sense. These farmers are trying to get their farms back 
to normal. Accusing them of damaging their own property is 
extremely disingenuous.
    I thank the witnesses again, and I yield back.
    Mr. Raskin. Thank you, Ms. Kelly.
    I now go to my dear Ms. Tlaib, the pride of Michigan, for 
your five minutes.
    Ms. Tlaib. Thank you so much, Chairman.
    I do want to start off by letting Mr. Luber know--it's very 
important for me for you to hear this: You are believed. I 
believe you. Everything, the experiences you went through--I 
know it's very hard, as you hear folks calling--I just want you 
to know I believe you and you inspire me to work harder in 
Congress.
    Mr. Luber. Thank you.
    Ms. Tlaib. Thank you.
    So, I really want to start out with Mr. Smith and asking 
you a question. Do you know the definition of ``misleading'' or 
``to be misled''?
    Mr. Smith. I do, yes.
    Ms. Tlaib. Oh--oh, well, let me help you. I'm going to read 
off the definition that I found on Oxford. ``Misleading is to 
give the wrong idea or impression.'' Other words used in place 
of ``misleading'' is ``deceiving'' and ``deceptive.''
    So, Mr. Smith, yes or no, when your company submitted its 
request to turn the Midship Pipeline on, your company knew that 
they still had months of work left to fully restore the 
landowners' farms harmed, correct?
    Mr. Smith. So I----
    Ms. Tlaib. Yes or no, did you all know? Yes or no? It's not 
that complicated. Did you know this information?
    Mr. Sessions. Mr. Chairman----
    Ms. Tlaib. Oh, here we go.
    Yes, Ranking Member?
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. Yes, Mr. Sessions?
    Mr. Sessions. This issue is one that you and I both 
respectfully, as well as the gentlewoman who is speaking, 
respect and appreciate. We're trying to highlight the issue, 
not the specific things that might still be in----
    Ms. Tlaib. I think it's----
    Mr. Raskin. OK.
    Ms. Tlaib. If I may, Chairman, I think it's really 
critically important----
    Mr. Sessions. And I would consider that----
    Mr. Raskin. All right.
    Ms. Tlaib. I think it's important to understand that the 
farmers and the landowners were misled.
    Mr. Sessions [continuing]. And would ask that the 
gentlewoman----
    Mr. Raskin. All right. But wait, my dear friends, you know, 
wait. It's going to be difficult if we're talking over each 
other.
    The time is Ms. Tlaib's time. Let's let her proceed. And I 
think we're going to continue to proceed in a totally civil 
way.
    And, Mr. Smith, you're not taking any of this personally. 
We understand you're sent here as part of your job----
    Mr. Smith. Yes.
    Ms. Tlaib. No. He works for the company. No.
    Mr. Raskin. And, Ms. Tlaib, please continue.
    Ms. Tlaib. Yes, absolutely. Just for you to know, Mr. 
Smith, this is very much just me understanding if the people 
were misled.
    Mr. Smith. I understand.
    Ms. Tlaib. Either your company knew or didn't know. That's 
all I need to know.
    Mr. Smith. So, we know that when we put the pipelines into 
service that we will have a restoration plan. And that 
restoration plan, in many cases, is a multiyear plan.
    Ms. Tlaib. Sure.
    Mr. Smith. We go out and do the work, and then we have to--
--
    Ms. Tlaib. But in your request, Mr. Smith, in your request 
to turn on the pipeline, you told FERC that you would need 
until June 30 to finish restoration, yes or no?
    Mr. Smith. In order to----
    Ms. Tlaib. I'm talking about an application you submitted 
to the Federal Government. Did you tell them that you need 
until June 30?
    Mr. Smith. Yes.
    Ms. Tlaib. OK. So, if I have this right, the corporation 
you work for, worth over $15 billion, wanted to start profiting 
on the pipeline just a few weeks after it had been completed. 
They misled the landowners and had months left to address the 
damage they caused the farmers and their land.
    We can leave that with no answer, but I just wanted to 
explain.
    And, again, this is not--this is me as an attorney, as 
someone that has worked with so many residents that continue to 
be, you know, run over and kind of dismissed, even though, for 
many, as you heard Mr. Luber tell you, they did everything they 
were supposed to, they did everything right.
    And so, Mr. Squires, do you believe the public and farmers 
were misled, yes or no?
    Mr. Squires. Absolutely. I mean, Midship publicly committed 
to doing numerous things that never actually occurred.
    Ms. Tlaib. Yes. And I have personal experience where I have 
companies, corporations that apply for air quality permits in 
my district, which has one of the worst air qualities in the 
country. They come with shiny posters and tell us they're going 
to do all these wonderful things. Years and years of us 
fighting for air monitors.
    So, I am, personally, for me, watching my residents get 
sick because they didn't implement it. And now hearing Mr. 
Luber's experience is really tragic.
    Is it fair to say that the company wanted Midship to start 
generating revenue as quickly as possible and had no intention 
of restoring farmers, Mr. Squires?
    Mr. Squires. I would say so.
    Ms. Tlaib. OK.
    Mr. Squires. I would agree with that.
    Ms. Tlaib. This is a tragedy and an example of how FERC's, 
you know, pipeline approval process is broken. The company 
could immediately start raking in cash, right, profiting, all 
while hurting folks like Mr. Luber, who we represent in 
Congress. We represent him. You know, Mr. Luber was literally 
robbed out of his own livelihood, his income.
    So, Mr. Smith, can you give me--you know, this is your 
opportunity to do the right thing. Yes or no, will your company 
commit to fully restoring--and if you answered other 
colleagues, that's fine, but I really want a commitment on the 
congressional record in this committee.
    Will your company commit to fully restoring these folks' 
property and compensating them in full for all damages and lost 
income?
    Mr. Smith. Congresswoman, we fully commit to fully 
complying with the FERC order that's in front of us, which 
means that we will work with FERC to ensure that we meet all of 
those requirements.
    Ms. Tlaib. OK. Great.
    Mr. Smith. And, in fact, we are on the ground with Mr. 
Luber right now, and I look forward to having the opportunity 
to walk that----
    Ms. Tlaib. And, you know, I hope it doesn't stop with Mr. 
Luber. Because he testified here--I've seen this happen--you go 
help him, but you don't help the others because they didn't 
come. So, we will seek out others that you hurt, and we will 
require you to please do the right thing.
    You've committed it publicly. You should follow through on 
that commitment and not mislead or deceive these folks that are 
not against you--as you heard him. They were doing the right 
thing. They were doing everything they were supposed to do. You 
didn't follow through.
    Last, you know, and, again, really important, Chairman, is 
that we follow up and seek out any other information from FERC 
in regards to what compliance they have, you know, followed 
through on, but also seeking out the other landowners, not just 
Mr. Luber. Because I think it's important that we don't allow 
them to just help a few here and there but they actually help 
every single person harmed by their lack of accountability and 
following through on what they committed to these folks.
    I yield.
    Mr. Raskin. I appreciate that, Ms. Tlaib.
    The gentlelady yields back.
    There are just a handful of us here, and I have a few more 
questions which I'd like to ask. I'd like to give the ranking 
member and Ms. Tlaib and Ms. Kelly the chance to ask a couple 
more questions if you want.
    Look, Mr. Smith, I appreciate your being here today. You 
represent a large company that has trampled the rights of a lot 
of people. You seem like a delightfully nice guy. It is not a 
personal thing. We need to get the law correct and the 
administrative process correct so we don't have to call a 
congressional hearing to get relatively simple things done, 
like people's land restored, right? Because, as Ms. Tlaib is 
suggesting, we're not going to be able to go and conduct a 
hearing on each of these. That's what the FERC process is for, 
right?
    And I think everybody agrees that FERC should not just be 
an instrument of the big companies. As my friend Mr. Sessions 
says, you work for a big company. Big companies can do wrong 
things too. So, we don't want the government that's just in the 
pocket of the big companies. We want government that is going 
to protect everybody's rights in a situation like this.
    So, Mr. Gedge, let me come back to you. If we're going to 
legislate structurally, systemically, in order to prevent 
people in Mr. Luber's situation from getting their rights 
abused in the future, what are the things that we could get 
Congress together to do now related to eminent domain and 
related specifically to the restoration and the repair of 
people's land?
    Mr. Gedge. Sure. So, thank you, Chairman. A few things.
    First, I would improve the notice so that people who end up 
facing eminent domain know that they're going to face eminent 
domain and they have a chance to object to it.
    Second, I would align the people----
    Mr. Raskin. Can you explain that for a second? Are you 
saying that people are not receiving sufficient and adequate 
notice?
    Mr. Gedge. So, historically, there has been concerns that 
the notices that are issued during the FERC certificate process 
don't provide sufficient notice to the people who ultimately 
are on the receiving end of a condemnation action.
    Mr. Raskin. OK.
    Mr. Gedge. And beyond that, Mr. Chairman, I would just add 
that aligning the payment and possession dynamics with the 
Federal Government, I think, would go a long way toward 
eliminating that loophole that we were discussing where the 
companies take possession long before they actually make 
payment.
    And beyond that, on the question of restoration, one 
possible way to address that would be to create a trespass 
cause of action for folks where the company exceeds the scope 
of the easement and doesn't restore the property consistent 
with their obligations either under court order or under the 
terms of the easement.
    Mr. Raskin. OK. I appreciate that.
    And I haven't gone back to look at the cases. I want to 
look into the whole Fifth Amendment question. To me, it's just 
unbelievable that it's consistent with the Fifth Amendment of 
our Constitution that the government can essentially delegate 
the eminent domain power to a private company to take my land 
and all of that can happen before I get any money.
    And so I haven't received my money, and then, after ripping 
up my land, that that is something that can be continually 
postponed. I mean, that is a dystopian nightmare of just Big 
Brother and the merger of Big Business and Big Government to 
violate the rights of the people. That just can't be right. 
We've got to put government back on the side of the people.
    So, with that, I pledge to work with Mr. Sessions, with 
every member of this committee. Let's come up with some 
legislation that will have bipartisan support that will 
guarantee this won't happen again.
    Mr. Sessions, I turn it to you for any closing thoughts or 
closing questions you may have.
    Mr. Sessions. Mr. Chairman, thank you very much.
    Mr. Chairman, let me say that I think the balance of this 
hearing has been well-intended, and that was to hear, sure, 
specifically where things did not necessarily occur where they 
should have.
    I think that what I would want to do is, Mr. Chairman, for 
us all, as a subcommittee, to look into and maybe get back with 
each of these participants on a balanced way to make sure that 
the Federal courts also understand the Federal--or the intent 
of the law. And, seemingly, I find myself at the back side of 
not knowing what these court cases that have shaped the way 
that companies then react, not only to FERC but react in the 
marketplace.
    And so I would say to each of the people who've been here 
today, including Mr. Squires, including Sam, I want to thank 
you.
    But, Mr. Smith, always--and you know this, and the chairman 
respectfully acknowledged what I think is truthful--big 
companies, like AT&T, which is my former company, or your $38 
billion company, Cheniere, do have responsibilities. They do 
have the need to make sure that they are following the law, 
that they are doing their things in the best interest of a 
balanced purpose, because they are dealing with our land, with 
our landowners, with the Constitution.
    And so I would say to you, Mr. Smith, Mr. Squires, and Mr. 
Gedge, I would like to spend time to balance this out. I would 
like for Ms. Tlaib to feel like that we respectfully did not 
only hear her concerns but also others who have spoken up.
    But the balance that we will get, Mr. Chairman, will be 
good public policy, to make sure we don't look back in a year 
or two and say, wow, we didn't fix what we heard.
    So, I want to thank all the witnesses. I have no reason to 
believe that there was bad faith on anybody's part, but I do 
know that things like this do happen. And so we need to look 
further into Article III powers, of how they have looked at 
this, and make sure we include that as part of our discussion, 
answer, and result.
    So, Mr. Chairman, you have lived up to the agreement that 
we had to effectively look at issues. We have included 
landowners, we've included outside groups, and we've included 
the people who were at the heart of the matter. I appreciate 
and respect the subcommittee's balanced approach. And our 
moving forward will be that exactly as you have stated, and I 
look forward to working with you.
    And I want to thank our witnesses and the members of the 
committee for us thoughtfully working with each other.
    Thank you, sir.
    Mr. Raskin. Thank you so much, Mr. Sessions, for your 
thoughtful remarks.
    I don't know if Ms. Kelly is still here. If she's not, I 
would invite Ms. Tlaib to ask any final questions she may have.
    Ms. Tlaib. No, just--you know, I just want to commend Mr. 
Luber, because I know this process is extremely intimidating. 
You know, the whole committee process, just being here, 
sharing, being vulnerable, I know how much it takes. Because 
even though you have not done anything wrong--the wrongdoing 
was not on you, but a process that was set up in a way that 
wasn't balanced, that didn't protect you.
    And so I want you to know that, you know, I commend your 
courage to doing that. And I know there's so many that just, 
you know, even coming here, they think, ``It's a waste of time. 
They're never going to hear me.'' I just want up to know I 
heard you.
    And many of us are, again, inspired and motivated to 
address this. And if it was the wrongdoing on the part of Mr. 
Smith's company that motivates us to say it's broken and we 
need to fix it, it is going to be hearing stories like yours.
    Not only on notice, but the language being used and what 
was sent to your homes, you know, I know that doesn't make 
sense sometimes. And I know. I've heard. And that happens to my 
residents as well. They don't understand particulate matter. 
They want to know, how is their public health being impacted by 
air permits?
    So, I have been there and, you know, represented so many 
organizations that have been fighting, you know, again, to fix 
these processes that are just--I think Ranking Member Sessions 
is right, this balanced approach. Because I know this much, and 
you know this, Mr. Luber: You know, when somebody does 
wrongdoing, admitting it and addressing it aggressively, that 
lands us with so much respect. But when there is wrongdoing and 
there's pretending, like, you know, that it didn't happen, some 
sort of, like, deception that, ``Oh, oops''--this wasn't an 
oops. This was intentionally taking a step toward making sure 
that you're not whole.

    And so I just--I really commend you, and I want you to know 
how much I appreciated your testimony today.

    Mr. Luber. Thank you so much.

    Mr. Raskin. Thank you so much, Ms. Tlaib.

    And I wanted to ask one final question of you, Mr. Smith. 
You've mentioned a couple of times that Cheniere has several 
people on the ground actually fixing property, which is good to 
hear. And I just wanted to give you the chance to elaborate 
that. Can you tell us how many people you've got on the ground 
right now fixing the relevant properties?

    Mr. Smith. Well, thank you, Mr. Chairman.

    So, we've got a full negotiation team out on the ground, 
you know, anywhere between five, six people, that are directly 
engaging with landowners. So, right now, as we speak, they are 
on the ground at this moment doing that work.

    We also have crews, because, you know, as I was able to 
discuss a little bit, with the 56 tracts we've started with, 
we've made significant progress in this short period of time, 
with the full intention of meeting the deadline that was 
established by FERC.

    So, we have----

    Mr. Raskin. All right.

    Mr. Smith [continuing]. A team on the ground of people and 
negotiators as we speak right now.

    Mr. Raskin. Five or six. Thank you for that.

    We are going to both aggressively pursue everything we know 
about this situation at the micro level while we explore policy 
fixes at the macro level to see if we can improve this whole 
legal regime out there which hasn't been looked at in a long 
time.

    Mr. Sessions, I thank you.

    Members, I thank you.

    Mr. Luber, Mr. Smith, Mr. Squires, Mr. Gedge, thanks to all 
of you for participating today.

    And let's see, I just have a--I think before--the witnesses 
will have and the members will have time over the next several 
days--I don't know exactly how many.

    How many days do they have to----

    Staff. Five.

    Mr. Raskin. Members have five days to include any 
additional material or to amend their statements in any way.

    Mr. Raskin. And, with that, the hearing is closed.

    Thank you so much.

    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
